HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed
in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02664)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02664)
December 23, 2002
Complete
Text of Report is available in PDF format (533 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our analysis was to evaluate the effectiveness
of TrailBlazer Health Enterprises' claims processing system in identifying payment
reductions for multiple ambulatory surgical center procedures for calendar years
1999 through 2001.  Regulations require that when multiple services are
provided in the same operative session, the highest paying procedure is reimbursable
at the full payment rate while the other procedures are reimbursable at one-half
the normal payment rate.  Our analysis showed that TrailBlazer Health Enterprises
systems failed to identify such instances, which resulted in provider overpayments
for calendar years 1999 through 2001of approximately $79,164, $51,665 and
$45,215 ($176,044), respectively.  Included in the identified overpayments
is approximately $35,842 in beneficiary overpayments for coinsurance.
Most of the overpayments occurred because the carriers processing system did
not identify multiple procedures performed during the same session when submitted
on separate claims.